                                                                              t



November 13, 2008


Subject: Audited Financial Statements for Fiscal Years 2008 and 2007, Federal Communications
Commission

To: Dr. Kent Nilsson, Inspector General of the Federal Communications Commission

Dear Dr. Nilsson:

We are pleased to present the attached Independent Auditor’s Report for the audits of the Federal
Communications Commission (FCC) Financial Statements as of and for the years ending
September 30, 2008 and 2007.

The auditor’s report contains an unqualified opinion on the financial statements, one material
weakness in internal control, three significant deficiencies, and two instances of noncompliance
with laws and regulations.

Material Weakness
   1. USF Budgetary Accounts

Other Significant Deficiencies
   1. Financial Reporting Process;
   2. Allowance for Loss on Accounts Receivable Methodology; and
   3. Information Technology Control Deficiencies.

Noncompliance with Laws and Regulations
   1. Federal Managers Financial Integrity Act of 1982 (FMFIA)
   2. Debt Collection Improvement Act of 1996 (DCIA)

We appreciate the cooperation and assistance of the FCC management and the OIG
representatives. If we can answer any questions, please call me at (571)227-9607 or Denise Wu at
(301)902-8586.

Sincerely,

CLIFTON GUNDERSON LLP




Mia Leswing, CPA, CGFM, CISA
Partner

Attachment
11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                  Offices in 17 states and Washington, DC
                                    INDEPENDENT AUDITOR’S REPORT

Managing Director of the Federal Communications Commission
Chief Financial Officer of the Federal Communications Commission

In our audit of the Federal Communications Commission (FCC) for fiscal year (FY) 2008, we
found:

      •    The FCC financial statements are presented fairly, in all material respects, in conformity
           with accounting principles generally accepted in the United States of America;
      •    One material weakness in internal control and three significant deficiencies; and
      •    Two instances of noncompliance with laws and regulations.

The following sections discuss in more detail: (1) these conclusions, (2) our conclusions on
Management’s Discussion and Analysis (MD&A) and other supplementary information, (3) our
audit objectives, scope and methodology, and (4) agency comments and evaluation.

OPINION ON FINANCIAL STATEMENTS

The accompanying financial statements including the accompanying notes present fairly, in all
material respects, in conformity with accounting principles generally accepted in the United
States of America, FCC’s assets, liabilities, and net position as of September 30, 2008 and
2007; and net costs; changes in net position; budgetary resources; and custodial activity for the
years then ended.

CONSIDERATION OF INTERNAL CONTROL

In planning and performing our audit, we considered FCC’s internal control over financial
reporting as a basis for designing our auditing procedures and to comply with the Office of
Management and Budget (OMB) audit guidance for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on internal control and
compliance or on management’s assertion on internal control included in MD&A. Accordingly,
we do not express an opinion on the effectiveness of the entity’s internal control over financial
reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
11710 Beltsville Drive, Suite 300
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                        1
                                        Offices in 17 states and Washington, DC
www.cliftoncpa.com
misstatement of the entity’s financial statements that is more than inconsequential will not be
prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in the internal control that might be significant deficiencies and, accordingly, would not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses.

We identified certain deficiencies, as described in Exhibits I and II, involving internal control over
financial reporting and its operation that we consider to be a material weakness or significant
deficiencies. The deficiencies are summarized as follows:

   Material Weakness – Exhibit I
   • USF Budgetary Accounts

   Other Significant Deficiencies – Exhibit II
   • Financial Reporting Process;
   • Allowance for Loss on Accounts Receivable Methodology; and
   • Information Technology Control Deficiencies.

These deficiencies in internal control may adversely affect any decision by management that is
based, in whole or in part, on information that is inaccurate because of these deficiencies.
Unaudited financial information reported by FCC, including budget information, also may contain
misstatements not prevented or detected because of these deficiencies.

In addition, we noted other matters involving internal control and its operation that are not
considered significant deficiencies that we will communicate in a separate management letter.

COMPLIANCE WITH LAWS AND REGULATIONS

Except as noted below and described in Exhibit III, our tests of FCC’s compliance with selected
provisions of laws and regulations for fiscal 2008 disclosed no instances of noncompliance that
would be reportable under United States Government Auditing Standards or OMB audit
guidance. However, the objective of our audit was not to provide an opinion on overall
compliance with laws and regulations. Accordingly, we do not express such an opinion.

The continuing instances of noncompliance are summarized as follows:

   •   Federal Managers Financial Integrity Act of 1982 (FMFIA)
   •   Debt Collection Improvement Act of 1996 (DCIA)

STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES AND NONCOMPLIANCE ISSUES

As required by Government Auditing Standards and OMB Bulletin No. 07-04, as amended, we
have reviewed the status of FCC’s corrective actions with respect to the findings and



                                                  2
recommendations included in the prior year’s Independent Auditor’s Report dated November 13,
2007. Exhibit IV provides a discussion on the status of prior year findings and
recommendations.

CONSISTENCY OF OTHER INFORMATION

FCC MD&A included as Section I is not a required part of the financial statements but is
supplementary information required by accounting principles generally accepted in the United
States of America. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of the
required supplementary information. However, we did not audit the information and express no
opinion on it.

The introductory information, performance information and other accompanying information
listed in the table of contents are presented for additional analysis and are not a required part of
the financial statements. Such information has not been subjected to the auditing procedures
applied in the audit of the financial statements and, accordingly, we express no opinion on them.

OBJECTIVES, SCOPE AND METHODOLOGY

FCC management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States, (2) establishing, maintaining, and
assessing internal control to provide reasonable assurance that the broad control objectives of
FMFIA are met, and (3) complying with other applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States. We are also responsible for: (1) obtaining a sufficient
understanding of internal control over financial reporting and compliance to plan the audit, (2)
testing compliance with selected provisions of laws and regulations that have a direct and
material effect on the financial statements and laws for which OMB audit guidance requires
testing, and (3) performing limited procedures with respect to certain other information
appearing in the Annual Financial Report.

In order to fulfill these responsibilities, we (1) examined on a test basis, evidence supporting the
amounts and disclosures in the financial statements, (2) assessed the accounting principles
used and significant estimates made by management, (3) evaluated the overall presentation of
the financial statements, (4) obtained an understanding of FCC and its operations, (including
safeguarding of assets), compliance with laws and regulations (including execution of
transactions in accordance with budget authority), (5) tested relevant internal controls over
financial reporting, and compliance, and evaluated the design and operating effectiveness of
internal control, (6) considered the design of the process for evaluating and reporting on internal
control and financial management systems under FMFIA, and (7) tested compliance with
selected provisions of certain laws and regulations.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to risk that controls may become


                                                 3
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to FCC. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB audit guidance that we deemed
applicable to FCC’s financial statements for the fiscal year ended September 30, 2008. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.

We performed our audit in accordance with auditing standards generally accepted in the United
States; the standards applicable to the financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB guidance.

AGENCY COMMENTS AND OUR EVALUATION

In commenting on a draft of this report (Exhibits I, II & III), FCC concurred with the facts and
conclusions in our report.

                            *********************************

This report is intended solely for the information and use of FCC’s management, FCC’s Office of
Inspector General, OMB, the Government Accountability Office, and the U.S. Congress, and is
not intended to be, and should not be, used by anyone other than these specified parties.




Calverton, Maryland
November 13, 2008




                                                 4
                      FEDERAL COMMUNICATIONS COMMISSION
                     INDEPENDENT AUDITOR’S REPORT EXHIBIT I
                               September 30, 2008


                                  MATERIAL WEAKNESS

1. USF Budgetary Accounts

  USF management does not have formal policies and procedures that provide detailed
  guidance or instructions on the accounting for recoveries of prior year obligations although
  these recoveries constitute a significant balance on the FCC’s consolidated financial
  statements. During our interim testing, we inquired about the accounting treatment for the
  recoveries reported in the FCC Statement of Budgetary Resources. FCC researched the
  issue and determined that USF management did not record the downward and upward
  adjustments during fiscal year 2007 and for the eight months ended May 31, 2008, as
  verbally instructed by FCC management.

  The Universal Service Administrative Company (USAC) failed to properly implement FCC’s
  verbal instruction to record all expirations at the Funding Request Number (FRN) level as
  downward adjustments and all re-instatements as upward adjustments. It continued to
  record the net change in recoveries by program funding year in FY 2007.

  During FY 2008, the FCC followed up on its original instruction to USAC and directed USAC
  again to book the recovery events at the FRN level as discreet upward and downward
  adjustments for all of fiscal year 2008; the change was implemented and retroactive
  adjustments made back to October 1, 2007, as of June 30, 2008.

  During September 2008, FCC management obtained guidance from the Office of
  Management and Budget (OMB) on the preferable accounting treatment for USF’s expired
  commitments. OMB concurred with FCC’s proposed methodology of accounting for the
  upward and downward activity for Funding Request Numbers (FRNs) as two separate and
  distinct accounting events. This methodology is different from USF’s practice in FY 2007 and
  prior years of recording downward and upward adjustments for obligations based on net
  expirations by program funding year. Consequently, this procedure change resulted in an
  understatement of approximately $437 million related to expired activity recorded in the
  recoveries of prior year obligations and obligated incurred balances at September 30, 2007.

  In addition, during the audit process, a second matter surfaced concerning the SBR. This
  issue was due to a misinterpretation of instructions provided by the FCC to USAC
  concerning how to account for posting activity on expired commitment letters. The result of
  this error was that the reversal of the FY 2007 upward adjustment accrual (reported on line
  8 of the SBR) in the amount of $548 million was incorrectly recorded as a downward
  adjustment or recovery of prior year obligations (on line 2 of the SBR). The initial accrual
  entries and the reversal of those entries should have been netted in the same account and
  cross-walked to the obligation incurred balance reported on line 8 of the SBR. The recording
  of these transactions overstated the upward and downward adjustments by $548 million.




                                             1
                    FEDERAL COMMUNICATIONS COMMISSION
                   INDEPENDENT AUDITOR’S REPORT EXHIBIT I
                             September 30, 2008


Although the net effect of these two matters of approximately $111 million or 0.96% of the
Total Budgetary Resources reported on the SBR did not result in prior period adjustments to
either the “Total Budgetary Resources” or the “Total Status of Budgetary Resources”, the
above scenarios illustrate the USF and FCC’s lack of an adequate and/or detailed review
over the journal entries to identify the error and ensure accurate reporting. This condition is
driven in part by USF financial management staff not being fully familiar with federal
financial accounting standards and reporting requirements. USF, as a FCC component
entity, should fully understand and take responsibility for its financial results. The FCC’s
review should serve as an additional layer of review control for financial reporting.

Recommendations: We recommend that FCC management:

   1. Focus management’s efforts on performing periodic in-depth financial analysis,
      including fluctuation and trend analysis, at a minimum, on a quarterly basis.
      Enhancement to the fluctuation analysis should include developing expectations that
      are directly attributed to financial trends, operational trends or both. In addition, the
      trends should be based on dollar value, percentage changes or both over a period of
      time. Each expectation that is not met should be researched and results collaborated
      by data. Analytical tools that could be used are ratio analysis and trend analysis as
      well as predictive techniques such as calculation of an expected balance. (New)

   2. Assess the need for more human capital resources assigned to the financial
      statement preparation and analysis process. The assessment should be conducted
      as soon as practical. In addition, a cross-training program should be implemented by
      providing key financial management personnel training related to federal government
      accounting standards and reporting requirements. Such training should be
      continuous to ensure financial management staff understands the current
      requirements. (New)




                                            2
                       FEDERAL COMMUNICATIONS COMMISSION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT II
                                September 30, 2008


                              SIGNIFICANT DEFICIENCIES

1. Financial Reporting Process

  The FCC financial statements comprise the financial results of the following reporting
  components (Entity): The Commission (FCC), the Universal Service Fund (USF), The
  Telecommunications Relay Services Fund (TRS) and the North American Numbering Plan
  (NANP). The FCC has the oversight responsibilities over the other component entities. USF,
  TRS and NANP are administered by other organizations independent of FCC. The FCC and
  its component entities must have financial systems in place to meet the stringent reporting
  requirements mandated by OMB. Each component entity is responsible for preparing its trial
  balance. The FCC’s Office of the Managing Director, Division of Financial Operations, is
  responsible for reviewing the component entities’ trial balances before including their
  financial data in the FCC consolidated financial statements.

  We noted that deficiencies continue to exist in the FCC entities’ internal controls relating to
  the financial reporting process as outlined below:

       a) Financial Systems do not fully support financial management or facilitate the
          automated preparation of accurate Financial Statements;
       b) Lack of automated integration of component entities’ Trial Balances.

   The following provides a status of several of the deficiencies noted in our prior year report
   along with examples of the effect that inadequate financial management systems and
   continued internal control deficiencies had on the financial statements provided for audit
   throughout FY 2008.

   a) Financial Systems do not fully support financial management or facilitate the timely
   preparation of accurate Financial Statements

      Financial statements should be prepared from an accounting system that is an integral
      part of a financial management system containing sufficient structure, effective internal
      controls, and reliable data. Once implemented, this financial management system should
      allow an entity to prepare reliable financial statements in a timely and efficient manner.
      The FCC reporting component entities’ current financial systems and processes are not
      capable of achieving this goal. Many of the entities’ significant transactions are tracked
      on Excel spreadsheets and recorded into the general ledger at the summary level.
      Examples include:

          o   Spectrum Auction Activities for FCC
          o   Investment Transactions for USF and TRS
          o   Deferred Revenues for FCC
          o   Accounts Payable Transactions for USF
          o   Loans Transactions for FCC
          o   Budgetary Transactions/Entries for USF and TRS
          o   Property Transactions for FCC
          o   On-top Financial Statement Adjustments
          o   Accounts Receivable maintained outside of the AR Subsidiary Ledger for USF


                                               3
                    FEDERAL COMMUNICATIONS COMMISSION
                   INDEPENDENT AUDITOR’S REPORT EXHIBIT II
                             September 30, 2008


   Due to the lack of system interface or integration capabilities between the subsidiary
   systems and the general ledger systems, many routine transactions were periodically
   recorded into the general ledger at the summary level. Such manual processes are time
   consuming and increase the risk of potential errors in the financial statements.

   Significant manual effort was needed to post transactions before the data was good
   enough to conclude that there is relatively low risk that further misstatements would be
   material in relation to the financial statements. Prior to preparing the consolidated
   financial statements at September 30, 2008, over 2,200 adjustments with an absolute
   value of approximately $148 billion were made by FCC entities. The volume and amount
   of these adjustments show that the current financial systems are not working properly to
   accurately record routine transactions. Also, the frequent use of nonstandard entries
   inherently increases the potential for errors, as nonstandard accounting entries increase
   the risk of bypassing accounting and system controls

b) Lack of automated integration of component entities’ Trial Balances
    Each FCC component entity is responsible for preparing a complete trial balance from its
    own financial management system(s). Certain aspects of those systems are not
    compliant with the OMB Circular A-127 requirements as they are not fully integrated with
    the subsidiary systems and do not record financial activities at the transaction level
    compliant with the U.S. Government Standard General Ledger (SGL). In order to
    prepare its consolidated financial statements and related footnotes, the FCC’s Office of
    the Managing Director, Division of Financial Operations, uses a manually intensive
    process of compiling the component entities’ trial balance and financial data in numerous
    spreadsheets that are subsequently “cross-walked” to the financial statements and
    footnote balances. This process is extremely time-consuming and could result in errors
    that are difficult to identify and track. It also could hinder management from adequately
    reviewing the statements in a timely manner.

Recommendations: Certain FCC component entities are in the process of implementing
new systems that are intended to replace their current systems. In order to implement OMB
reporting requirements, we recommend that FCC:

   3. Implement a financial system that is fully integrated and has the ability to record
      proprietary and budgetary transactions on a transactional basis and complies with
      the requirements set forth in regulations such as OMB Circular A-127. Management
      should set up standard transaction codes to the greatest extent possible in the new
      financial management system to process all routine transactions and to allow
      automated, timely, and accurate recording for all recurring entries that are currently
      entered manually. In addition, electronic integration with the subsidiary systems and
      with FCC financial management system will enable FCC entities to process
      accounting transactions or report financial data efficiently and effectively. Subsidiary
      details should be available at the transaction level so amounts reported in the
      financial statements are adequately supported and can be easily validated. The
      system software should be flexible to accommodate new accounting requirements
      issued by FASAB, OMB, and Treasury. (Updated)




                                            4
                      FEDERAL COMMUNICATIONS COMMISSION
                     INDEPENDENT AUDITOR’S REPORT EXHIBIT II
                               September 30, 2008


     4. Formalize and periodically update policies and procedures to a) provide guidance to
        management and staff in recording both recurring and unique transactions, including
        budgetary accounts, and b) strengthen internal controls for financial reporting to
        enhance the timeliness of financial statement preparation and to minimize the risk of
        preparing inaccurate financials. (New)

2. Allowance for Loss on Accounts Receivable Methodology

  In FY 2008, USF developed a historical trend analysis in accordance with its methodology to
  estimate the allowance for loss on accounts receivable (ALAR) related to the accounts
  receivable reported for FCC. Throughout FY 2008, USF management did not follow a
  consistent methodology or trend when recording the ALAR and management’s expectation
  for what was considered a normal collection pattern was not established prior to applying
  the calculation. For example, the ALAR calculation and trend analysis at June 30 2008 was
  not consistent with the methodology at September 30, 2007. Also, the ALAR calculation
  and trend analysis at September 30, 2008 was not consistent with the methodology at June
  30, 2008.

  USF reported approximately $278 million as ALAR on approximately $1.1 billion of accounts
  receivable (AR) as of September 30, 2008, which approximates 25% of the accounts
  receivable balance and is material to the FCC financial statements. USF management
  performed collections analysis on all types of receivables in calculating the ALAR except for
  contributor invoiced receivables of approximately $708 million. At June 30, 2008, USF
  management selected a December 31st 3-year annual collection average rate by type for
  the previous three fiscal years (FY 05-07) in accordance with its then existing procedure.
  Management then used the average collection rate multiplied by the outstanding receivable
  balances to arrive at the amounts to be reported as the ALAR. At September 30, 2008,
  management revised the ALAR methodology to calculate ALAR rates that are applied to
  outstanding AR balances by type based on a 12 quarter weighted average percentage.
  Based on the aforementioned methodology, the percentage used to calculate the ALAR will
  continuously be a moving average, which could fluctuate greatly if there is an abnormal
  quarter. As a result, a change in estimate to the ALAR may occur and not be supported due
  to the fact that the abnormality was not appropriately evaluated by management.

  In accordance with the Statement of Federal Financial Accounting Standard #1, “Accounting
  for Selected Assets and Liabilities”, an entity should recognize and report on its financial
  statements losses due to uncollectible amounts measured through a systematic
  methodology. The systematic methodology should be based on analysis of both individual
  accounts and a group of accounts as a whole. Within a group, receivables are further
  stratified by risk characteristics. Examples of risk factors are economic stability, payment
  history, alternative repayment sources, and aging of the receivables. Statistical estimation
  should take into consideration factors that are essential for estimating the level of losses,
  including historical loss experience, recent economic events, current and forecast economic
  conditions, and inherent risks. Accounts that represent significant amounts should be
  individually analyzed to determine the allowance reserve.

  USF management revised its ALAR policies and procedures. However, USF management
  did not finalize policies and procedures for the ALAR methodology throughout FY 2008.



                                              5
                    FEDERAL COMMUNICATIONS COMMISSION
                   INDEPENDENT AUDITOR’S REPORT EXHIBIT II
                             September 30, 2008


Therefore, the calculation for ALAR was not performed consistently from year to year or
from FY 2008 quarter to quarter. Management provided a version of the ALAR policies and
procedures used to calculate and perform the historical trend analysis in August, 2008. We
noted that the policy section of the aforementioned document did not contain the following:

•   A historical trend analysis that considers age of the receivables to validate the ALAR
    reserve.
•   Information on how the fluctuation analysis expectation should be developed, and the
    data that will be used to corroborate explanation as well as the overall conclusion on the
    methodology. The current policy supported a moving ALAR percentage based on a 12-
    quarter average.
•   A requirement for reviewing the ALAR on an item by item basis when the amounts owed
    by individual carriers are material and for considering the impact of the materiality on the
    overall ALAR separately rather than treating them as part of the group.
•   A requirement for performing fluctuation analyses of amounts reported by types of
    receivable and age after the calculation is completed.
•   Criteria as to which circumstances or factors may render the methodology invalid and
    thus require further refinement or reinvention.

Recommendations: We recommend that USF management:

    5. Develop, formalize and implement the ALAR policies and procedures to reflect an
       ALAR methodology that includes the following elements:
       • Performance of a historical trend analysis based on both type and age of the
          receivables to validate the ALAR reserve. If aging trend analysis is not
          appropriate, management should include the rationale for excluding the aging
          analysis as supported by historical data in its policy.
       • Consideration and documentation of other factors that could affect the historical
          trend in the future and how that assessment affects the ALAR methodology.
          Such factors include the overall economy of the communications industry, and
          the credit quality of carriers. Once these factors are considered, management
          should establish a set of rates for the ALAR reserve by type and age, including
          consideration for anticipated recoveries.
       • Development of management’s expectations for the trend analysis which
          includes setting the criteria for variances that are considered significant. Each
          significant variance should be researched and resolved. The resolution should be
          supported by collaborating data and maintained by management for review.
       • Review of the ALAR on an item by item basis when the amounts owed by
          individual carriers are material and consider their impact on the overall ALAR
          separately.
       • Performance of fluctuation analyses of amounts reported by types and ages of
          the receivables after the calculation is completed. If an aging fluctuation analysis
          is not appropriate, management should include an explanation of the rationale for
          excluding aging analysis in its policy.

    6. Periodically assess the adequacy of the ALAR by comparing the recorded amounts
       to the estimated amounts. Any adjustments to the current methodology should be



                                             6
                      FEDERAL COMMUNICATIONS COMMISSION
                     INDEPENDENT AUDITOR’S REPORT EXHIBIT II
                               September 30, 2008


         documented and supported by data or analysis. The estimated collection and
         recovery amounts are subject to risk that actual amounts collected may be different
         than management’s estimates. When this occurs, management should further
         analyze the drivers or factors for such an unexpected occurrence to ensure the
         validity and reasonableness of the current methodology. (New)

3. INFORMATION TECHNOLOGY CONTROL DEFICIENCIES

  FCC needs to improve its entity-wide security program plan. For example, FCC has not
  certified and accredited all its major applications and general support systems, risk
  assessments were not conducted to identify risks to which the Commission’s information
  technology resources might be exposed and security policies and directives were either
  expired or not developed. FCC’s strategy for addressing controls will not be effective without
  strong management oversight to ensure policies and procedures are consistently applied
  and execution meets acceptable standards.

  We have identified issues that reflect a combination of these deficiencies that were
  previously communicated to FCC management. These issues are discussed below:

  a) Entity-wide Security Program Planning and Management

  During FY 2008, FCC changed its Information Technology Management Team (Chief
  Information Officer, Deputy Chief Information Officer and Computer Security Officer). The
  new team commenced improving its entity-wide security program. However, continued
  efforts are required especially in the areas of security administration and oversight.
  Specifically, we noted that risk assessments for several FCC major applications were not
  performed; certification and accreditation was not conducted for 50% of FCC’s major
  applications; some security plans were not updated regularly; the Commission’s plan of
  action and milestones process was deficient; employee new hire and termination processes
  were not operating effectively; and documentation was not properly maintained for
  terminated employees in our sample.
  Office of Management and Budget (OMB) Circular No. A-130, Appendix III Security of
  Federal Automated Information Resources, requires agencies to implement and maintain a
  program to assure that adequate security is provided for all agency information collected
  processed, transmitted, and stored in general support systems and major applications.
  Without an effective entity-wide security plan, FCC has an increased risk that security
  controls are inadequate and inconsistently applied. Such conditions may lead to insufficient
  protection of sensitive data and high expenditures for controls over low risk resources.




                                              7
                        FEDERAL COMMUNICATIONS COMMISSION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT II
                                 September 30, 2008


   b) Access Controls

   During our FY 2008 review, we noted that management and technical controls were not in
   place to limit, detect, or monitor access to FCC networks. These controls are necessary to
   protect the networks from unauthorized modification, disclosure, loss or impairment. Not all
   Government-owned laptop computers and other portable devices had been encrypted
   and/or password protected, password controls were weak and user access re-certification
   was not consistently performed. Additionally, there was no evidence of management’s
   review and approval of remote privileged access to FCC resources for a sample of FCC
   users tested.

NIST Special Publication 800-42, Guideline on Network Security Testing, requires agencies to
make network security testing a routine and integral part of the system and network operations
and administration. OMB Memorandum M-07-16, Safeguarding against and Responding to the
Breach of Personally Identifiable Information, identifies a number of steps to greatly reduce the
risks related to a data breach of personally identifiable information, while the Federal
Information Processing Standards Publication (FIPS PUB) 200, Minimum Security
Requirements for Federal Information and Information Systems, specifies minimum access
controls for federal systems.

Access controls should be in place to consistently limit, detect, or monitor access to computer
programs, data, equipment, and facilities thereby protecting against unauthorized modification,
disclosure, loss, or impairment. Such controls include both logical and physical security controls
to ensure that federal employees, contractors, and staff are only granted access privileges
necessary to perform business functions.

   c) Service Continuity

   FCC’s Continuity of Operation Plan (COOP) did not include components recommended by
   NIST SP 800-34 such as backup requirements, preventive controls and associated
   personnel and recovery strategies. There was no approved IT Disaster Recovery plan and
   some terminated employees still had access to FCC’s backup media stored offsite.
   Additionally, FCC’s service provider did not perform disaster recovery tests of its major
   applications.

   NIST 800-34, Contingency Planning Guide for Information Technology Systems, defines a
   seven-step contingency process that an agency may develop to maintain a viable
   contingency planning program for their IT systems.

   Service continuity controls ensure that when unexpected events occur, critical operations
   continue without interruption and critical and sensitive data are protected from destruction.

   d) Change Control

   During our review of FCC’s Application Development and Change Controls, we noted that a
   uniform configuration management plan had not been developed for the consistent testing,
   approval and implementation of configuration changes across all FCC applications, and
   responsibilities of database administrators and application developers for two major
   applications were not appropriately separated between development and production.


                                                8
                    FEDERAL COMMUNICATIONS COMMISSION
                   INDEPENDENT AUDITOR’S REPORT EXHIBIT II
                             September 30, 2008


Furthermore, infrastructure changes were not approved by the Change Advisory Board
(CAB) for almost fifty percent of sampled changes.

OMB Circular A-130 Appendix III, Security of Federal Automated Information Resources,
defines separation of duties as the practice of dividing the steps in a critical function among
different individuals. For example, one system programmer can create a critical piece of
operating system code, while another authorizes its implementation. Such a control keeps a
single individual from subverting a critical process.

Failure to implement a uniform configuration management plan for all FCC applications
increases the risk that the approval, testing and implementation of application changes
might not be consistently applied.

Recommendations: We recommend that FCC management:

   7. Strengthen its security administration; develop new policies when necessary; renew
      security policies and procedures before they expire; recertify and accredit systems
      before the accreditation expires and address security vulnerabilities noted in FCC’s
      technology infrastructure (updated).

   8. Strengthen system controls and user account management, notably FCC should:

       •   provide more oversight and develop its process to effectively provide standard
           system configuration, patch management and network vulnerability controls;
       •   encrypt and password-protect data on government-issued laptops and removable
           devices;
       •   perform periodic review and validation of users to ensure that only authorized
           users have access to these systems;
       •   document the authorization and justification for all users requesting remote
           access to system resources; and
       •   enforce password complexity authentication to FCC IT resources. (updated)
   9. Strengthen FCC’s application change controls, notably:

       •   Develop and implement a uniform configuration management plan for the
           consistent testing, approval and implementation of changes across all FCC
           applications. In addition, FCC should actively involve ITC staff in the testing and
           implementation decision process.
       •   Enforce separation of duties to ensure that access of developers to the
           production environments is restricted or supervised.
       •   Update the Support Services Change Management Policy and ensure that post
           deployment reviews are performed and documented for all changes migrated into
           production. (updated)
                        **********************************




                                            9
                        FEDERAL COMMUNICATIONS COMMISSION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT III
                                 September 30, 2008


                   COMPLIANCE WITH LAWS AND REGULATIONS

Except as noted below, our tests for compliance with selected provisions of laws and
regulations disclosed no other instances of noncompliance that would be reportable under U.S.
generally accepted government auditing standards or OMB audit guidance. The objective of our
audit was not to provide an opinion on the Agency’s overall compliance with laws and
regulations. Accordingly, we do not express such an opinion.

   1. The Federal Managers' Financial Integrity Act (FMFIA) (Repeat Condition) - The
      FMFIA requires agencies to establish management controls over their programs and
      financial systems as stated in the following sections of the Act:

       •   Section 2 seeks to assess internal controls necessary to ensure obligations and
           costs are in compliance with applicable law; funds, property, and other assets are
           safeguarded against waste, loss, unauthorized use, or misappropriation; and
           revenues and expenditures are properly recorded and accounted for to permit the
           preparation of accounts and reliable financial and statistical reports.

       •   Section 4 seeks to assess nonconformance with governmentwide financial systems
           requirements.

       OMB Circular A-127 offers guidance in implementing FMFIA. OMB Circular A-127
       requires that “Financial management systems shall be designed to provide for effective
       and efficient interrelationships between software, hardware, personnel, procedures,
       controls, and data contained within the systems.” Furthermore, in doing so, “Financial
       systems design shall eliminate unnecessary duplication of transaction entry. Whenever
       appropriate, data needed by the systems to support financial functions shall be entered
       only once and other parts of the system shall be updated through electronic means
       consistent with the timing requirements of normal business/transaction cycles.”

       Moreover, OMB Circular A-127 requires that agency financial management systems be
       reviewed for compliance with specified minimum requirements. These include: Agency-
       wide Financial Information Classification Structure; Integrated Financial Management
       Systems; Application of the U.S. Government Standard General Ledger at the
       Transaction Level; Federal Accounting Standards; Financial Reporting; Budget
       Reporting; Functional Requirements; Computer Security Act Requirements;
       Documentation; and Internal Controls.

       In fiscal year 2008, as in prior years, the FCC has not fully complied with certain
       requirements of the FMFIA. See details in our Independent Auditor’s Report on Internal
       Control Section Significant Deficiency No. 1. FCC management should address and
       resolve the deficiencies noted in the Internal Control Section Significant Deficiency No. 1
       of the audit report. The key items we identified include:

       •   FCC’s current financial management system does not provide for effective and
           efficient interrelationships between the FCC and its component entities’ financial
           information systems. Many of FCC’s and its component entities’ significant types of
           transactions are tracked on Excel spreadsheets and are recorded at a later time into


                                               10
                     FEDERAL COMMUNICATIONS COMMISSION
                   INDEPENDENT AUDITOR’S REPORT EXHIBIT III
                              September 30, 2008


       the general ledger at a summary level. In order to prepare the consolidated financial
       statements and notes, FCC must compile the component entities’ financial data in
       numerous spreadsheets that are then cross-walked to the financial statements and
       footnote balances. This process does not facilitate the timely preparation of accurate
       financial statements, is extremely time consuming, and increases the risk that errors
       may be present and not detected.

   •   OMB Circular No. A-127 prescribes policies and standards for executive
       departments and agencies to follow in developing, operating and reporting on
       financial management systems. During our review in Fiscal Year 2008, we noted that
       FCC has started but not completed OMB Circular A-127 reviews of its financial
       management system.
Recommendation:
   10. We recommend that management complete OMB Circular A-127 reviews for its
       financial management system.


2. Debt Collection Improvement Act (DCIA) of 1996 (Repeat Condition) - In
   accordance with DCIA, the FCC is required to refer eligible receivables that are
   delinquent to Treasury for collection or offset. Eligible receivables include those that are
   not the subject of litigation, related to foreclosure proceedings, or from organizations in
   bankruptcy. In addition, CFR 31 Part 901 requires agencies to charge interest, penalties,
   and administrative costs on delinquent debt and, unless otherwise established in a
   contract, repayment agreement, or by statute, the rate of interest charged should be at
   the rate established annually by the Secretary of the Treasury.

       •   In the third quarter, the FCC did not transfer approximately $15 million in
           delinquent receivables over 180 days to Department of Treasury as required by
           the Debt Collection Improvement Act. In addition, FCC submitted its 3rd quarter
           Treasury Report on Receivables (TROR) for Administrative Loans that contained
           an error in the amount of approximately $237 million to be transferred to
           Treasury.
Recommendations: We recommend that FCC management:

   11. Establish and implement guidance in its policies and procedures manual to ensure
       that delinquent debt 180 days or older is referred to Treasury as required by the Debt
       Collection Improvement Act and that the TROR is properly reviewed to ensure its
       reasonableness prior to transmitting to Treasury.




                                            11
                           FEDERAL COMMUNICATIONS COMMISSION
                         INDEPENDENT AUDITOR’S REPORT EXHIBIT IV
                                    September 30, 2008


           STATUS OF PRIOR YEAR’S FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, we have reviewed the status of the FCC
component entities’ corrective actions with respect to the findings and recommendations
included in the prior year’s report on FCC component entities’ internal control dated November
13, 2007. The following analysis provides our assessment of the progress the FCC component
entities have made through September 30, 2008 in correcting the noted deficiencies identified in
the FY 2007 Internal Control report.


I. Financial Reporting
Recommendation     Condition Audit
     No.               Area                             Recommendation                              Current Status
       1         A. FCC Entity        Evaluate the need to link or interface the auction           Updated – reported
                                      spreadsheets/database with the FFS and/or the                in current year
                                      correction of the RAMIS auction module programming           recommendation
                                      with the objective of having an integrated system that       #3
                                      will generate correct data without manual intervention.
       2         A. FCC Entity        Ensure that ITS and PPE transactions are                     Updated – reported
                                      integrated/interfaced with FFS.                              in current year
                                                                                                   recommendation
                                                                                                   #3
       3         A. FCC Entity        Consider using an automated compilation system that          Updated – reported
                                      will allow component entity trial balances to be             in current year
                                      interfaced/loaded electronically and that will establish     recommendation
                                      a greater level of control over the conversion of trial      #3
                                      balances into financial statement and footnote
                                      balances.
       4         B. Component         Either interface various spreadsheets to the core            Updated – reported
                 Entities             financial system or re-assess the functional                 in current year
                                      requirements of the existing financial system (such as       recommendation
                                      the need for sufficient details for the accounts             #3
                                      receivable and accounts payable subsidiary ledgers)
                                      to achieve an integrated financial management
                                      system.
       5         B. Component         Record USF and TRS budgetary entries at the                  Updated – reported
                 Entities             transaction level and to the appropriate standard            in current year
                                      general ledger budgetary accounts timely.                    recommendation
                                                                                                   #3
       6         B. Component         Perform periodic reconciliation (preferably monthly but      Closed
                 Entities             at least quarterly) of the accounts receivable
                                      transferred from USF to FCC and ensure that
                                      reconciling items are promptly followed up and
                                      resolved. Clearly define responsibilities for monitoring
                                      and reviewing the reconciliation process.
II. Debt Collection Improvement Act
       7         Debt Collection      Refer all delinquent debt more than 180 days old to          Repeat – reported
                                      the Treasury for offset or for cross servicing in a timely   in current year
                                      manner.                                                      recommendation
                                                                                                   #12




                                                  12
III. Compliance with OMB Circular No. A-130, Requirement for a Comprehensive Security Plan
Recommendation
     No.         Condition Audit Area                  Recommendation                       Current Status
      8          Compliance A-130       Ensure that transmission of all sensitive date   Closed
                                        to and from the FCC’s contractors and
                                        business partners is protected and encrypted.
      9          Compliance A-130       Ensure that MOUs and/or ISAs are signed          Closed
                                        with all major external entities that the FCC
                                        shares data with, or whose systems are
                                        interconnected with the FCC systems.
      10         Compliance A-130       Ensure that FCC Computer Incident                Closed
                                        Response Team conducts meetings in
                                        accordance with the FCC Computer Incident
                                        Response Team Desk Reference Guide.
      11         Compliance A-130       Consistently implement the certification and     Updated – reported in
                                        accreditation process for all of the FCC’s       current year
                                        major applications and general support           recommendation #8
                                        systems.
                                        a. Recertify and accredit major applications
                                        that have had significant changes to their
                                        operating environment in accordance with
                                        NIST Special Publication 800-37 and FCC
                                        Directive 1479.3 .
                                        b. Ensure that all new major applications are
                                        certified and accredited before being placed
                                        into production.
                                        c. Ensure that the six major applications and
                                        one general support system are recertified
                                        and accredited.
      12         Compliance A-130       Implement procedures to ensure the prompt        Updated – reported in
                                        revocation of access to the FCC resources at     current year
                                        the effective date of termination of employees   recommendation #8
                                        and contractors.
      13         Compliance A-130       Document the policies and procedures for         Repeat – reported in
                                        granting access to FCC’s networks and            current year
                                        systems.                                         recommendation #8
      14         Compliance A-130       Develop and implement procedures and             Updated – reported in
                                        processes for the consistent implementation      current year
                                        of common configuration management               recommendation #10
                                        controls to minimize security deficiencies in
                                        general support systems.
      15         Compliance A-130       Improve and enhance control procedures for       Closed
                                        the handling and maintenance of sensitive
                                        information at the FCC.
     16.         Compliance A-130       Complete the OMB A-127 reviews in fiscal         Updated – reported in
                                        year 2008.                                       current year
                                                                                         recommendation #11




                                                  13
PRINCIPAL STATEMENTS

FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED BALANCE SHEET
As of September 30, 2008 and 2007
(Dollars in thousands)
                                                                    FY 2008          FY 2007
ASSETS (Note 2)
 Intragovernmental
   Fund balance with Treasury (Note 3)                          $      444,293   $      459,523
   Investments (Note 5)                                              5,721,609        5,012,017
   Accounts receivable (Note 6)                                          2,731            4,711
   Other (Note 8)                                                   17,177,707              -
 Total intragovernmental                                            23,346,340        5,476,251

 Cash and other monetary assets (Note 4)                                51,942          100,200
 Accounts receivable, net (Note 6)                                     891,106          750,762
 Loans receivable, net (Note 7)                                        187,340          216,845
 General property, plant, and equipment, net                            36,082           31,619
 Other                                                                  15,031            8,674

Total assets                                                    $   24,527,841   $    6,584,351

LIABILITIES (Note 9)
 Intragovernmental
   Debt (Note 10)                                               $      112,711   $      105,914
   Other (Note 11)
     Custodial                                                         193,854          256,223
    Other                                                                2,346            1,840
   Total other                                                         196,200          258,063

 Total intragovernmental                                               308,911          363,977

 Accounts payable                                                       79,569           94,505
 Other (Note 11)
  Deferred revenue (Note 8)                                         17,302,548           91,619
  Prepaid contributions                                                 73,179           45,417
  Accrued liabilities for Universal Service                            521,319          481,603
  Other                                                                 46,471           43,327
 Total other                                                        17,943,517          661,966

Total liabilities                                               $   18,331,997   $    1,120,448

 Commitments and Contingencies (Note 13)

NET POSITION
 Unexpended appropriations - other funds                        $       11,273   $       17,544
 Cumulative results of operations - earmarked funds (Note 19)        5,927,074        5,193,576
 Cumulative results of operations - other funds                        257,497          252,783

Total net position                                              $    6,195,844   $    5,463,903

Total liabilities and net position                              $   24,527,841   $    6,584,351



                             The accompanying notes are an integral part of these statements.




                                                                                                  1
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2008 and 2007
(Dollars in thousands)
                                                                   FY 2008           FY 2007
       Program costs:
        Broadband:
         Gross costs (Note 14)                                 $       21,787    $         22,142
         Less: earned revenue (Note 14)                               (25,109)            (23,989)
         Net program costs                                             (3,322)             (1,847)

        Competition:
         Gross costs (Note 14)                                      7,918,069           7,597,748
         Less: earned revenue (Note 14)                              (119,669)           (113,911)
         Net program costs                                          7,798,400           7,483,837

        Spectrum:
         Gross costs (Note 14)                                        198,845             28,179
         Less: earned revenue (Note 14)                              (154,572)          (167,793)
         Net program costs                                             44,273           (139,614)

        Media:
         Gross costs (Note 14)                                         53,368              37,805
         Less: earned revenue (Note 14)                               (59,717)            (39,805)
         Net program costs                                             (6,349)             (2,000)

        Public Safety and Homeland Security:
         Gross costs (Note 14)                                         32,985              33,664
         Less: earned revenue (Note 14)                               (37,104)            (34,446)
         Net program costs                                             (4,119)               (782)

        Modernize the FCC:
         Gross costs (Note 14)                                         50,784              50,441
         Less: earned revenue (Note 14)                               (55,920)            (50,939)
         Net program costs                                             (5,136)               (498)

        Total Net Program Costs                                     7,823,747           7,339,096

        Cost not assigned to programs:
         Telecommunications Development Fund                            8,960             11,836
         Other expenses                                                (1,311)            (1,386)

        Less: earned revenues not attributed to programs:
         Telecommunications Development Fund                           (8,960)            (11,836)

        Net cost of operations                                 $    7,822,436    $      7,337,710



                     The accompanying notes are an integral part of these statements.




                                                                                                     2
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2008 and 2007
(Dollars in thousands)

                                                                    FY 2008                                                     FY 2007
                                               Consolidated        Consolidated                             Consolidated       Consolidated
                                                 Earmarked              All Other       Consolidated          Earmarked            All Other       Consolidated
                                                      Funds                Funds               Total               Funds              Funds               Total

Cumulative Results of Operations:
 Beginning Balances                        $      5,193,576    $        252,783     $      5,446,359    $      5,112,001   $         81,877    $     5,193,878

Budgetary Financing Sources:
 Other adjustments (rescissions, etc.)                     -             (2,781)              (2,781)                  -             (1,619)            (1,619)
 Appropriations used                                       -              7,495                7,495                   -             32,518             32,518
 Non-exchange revenue                             8,566,063                   -            8,566,063           7,570,445                  -          7,570,445
 Transfers in/ out without reimbursement            (21,480)             21,480                    -                   -                  -                  -

Other Financing Sources (Non Exchange):
 Transfers in/ out without reimbursement                  -              (22,115)            (22,115)                  -            (25,163)           (25,163)
 Imputed financing                                        -               13,568              13,568                   -             14,585             14,585
 Other                                                    -               (1,582)             (1,582)                  -               (575)              (575)

Total Financing Sources                           8,544,583              16,065            8,560,648           7,570,445             19,746          7,590,191
Net Cost of Operations                            7,811,085              11,351            7,822,436           7,488,870           (151,160)         7,337,710
Net Change                                          733,498               4,714              738,212              81,575            170,906            252,481

Cumulative Results of Operations                  5,927,074             257,497            6,184,571           5,193,576            252,783          5,446,359


Unexpended Appropriations:
 Beginning Balances                                       -              17,544              17,544                    -             17,843             17,843

Budgetary Financing Sources:
 Appropriations received                                  -                1,000               1,000                   -             32,219             32,219
 Other adjustments                                        -                  224                 224                   -                  -                  -
 Appropriations used                                      -               (7,495)             (7,495)                  -            (32,518)           (32,518)
 Total Budgetary Financing Sources                        -               (6,271)             (6,271)                  -               (299)              (299)

Total Unexpended Appropriations                           -              11,273              11,273                    -             17,544             17,544

Net Position                               $      5,927,074    $        268,770     $      6,195,844    $      5,193,576   $        270,327    $     5,463,903




                               The accompanying notes are an integral part of these statements.




                                                                                                                                                             3
FEDERAL COMMUNICATIONS COMMISSION
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2008 and 2007
(Dollars in thousands)
                                                                               FY 2008                                FY 2007

                                                                                   Non Budgetary                           Non Budgetary
                                                                                   Credit Program                          Credit Program
                                                                   Budgetary       Financing Acct         Budgetary        Financing Acct
Budgetary Resources:

Unobligated balance, brought forward, October 1:               $      1,702,164    $        45,527    $       1,981,011    $       284,141
Recoveries of prior year unpaid obligations (Note 22)                 1,036,931                -              1,405,407                -
Budget authority:
 Appropriations received                                              8,598,479                -              7,793,793                -
 Borrowing authority (Note 16)                                              -                6,797                  -                3,274
 Spending authority from offsetting collections
   Earned:
     Collected                                                          411,862             15,258              383,376            137,328
     Change in receivables from Federal sources                               7                -                    (37)               -
   Previously unavailable                                                31,702                -                 25,300                -
 Budget authority subtotal                                            9,042,050             22,055            8,202,432            140,602

Temporarily not available pursuant to Public Law                        (54,130)               -                (31,702)               -
Permanently not available                                                (4,139)               -                 (1,813)          (346,356)

Total budgetary resources                                      $     11,722,876    $        67,582    $      11,555,335    $        78,387

Status of Budgetary Resources:

Obligations incurred: (Note 15)
 Direct                                                        $      9,438,478    $        13,678    $       9,851,168    $        32,860
 Reimbursable                                                             2,361                -                  2,003                -
 Subtotal                                                             9,440,839             13,678            9,853,171             32,860

Unobligated balance - available:
 Apportioned                                                            113,905                -                126,021                343
 Exempt from apportionment                                            2,061,178                -              1,564,395                -
Unobligated balance not available                                       106,954             53,904               11,748             45,184

Total status of budgetary resources                            $     11,722,876    $        67,582    $      11,555,335    $        78,387



Change in Obligated Balance:

Obligated balance, net
 Unpaid obligations, brought forward, October 1                $      3,464,773    $           -      $       2,898,642    $           -
 Uncollected customer payments from
 Federal sources, brought forward, October 1                                 (9)               -                    (46)               -
 Total unpaid obligated balance, brought forward, net                 3,464,764                -              2,898,596                -

Obligations incurred net (+/-)                                        9,440,839             13,678            9,853,171             32,860
Gross outlays                                                        (8,279,906)           (13,678)          (7,881,633)           (32,860)
Recoveries of prior year unpaid obligations, actual                  (1,036,931)               -             (1,405,407)               -
Change in uncollected customer payments from Federal sources                 (7)               -                     37                -
 Total, unpaid obligated balance, net, end of period                  3,588,759                -              3,464,764                -

Obligated balance, net, end of period
 Unpaid obligations                                                   3,588,774                -              3,464,773                -
 Uncollected customer payments from
        Federal sources                                                     (15)               -                     (9)               -
 Total, unpaid obligated balance, net, end of period                  3,588,759                -              3,464,764                -


Net Outlays

Net Outlays:
  Gross outlays                                                $      8,279,906 $           13,678    $       7,881,633 $           32,860
  Offsetting collections                                               (411,862)           (15,258)            (383,376)          (137,328)
  Distributed offsetting receipts                                      (216,686)               -               (275,777)               -
  Net outlays                                                  $      7,651,358 $           (1,580)   $       7,222,480 $         (104,468)




                                       The accompanying notes are an integral part of these statements.




                                                                                                                                              4
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2008 and 2007
(Dollars in thousands)

                                                                        FY 2008                  FY 2007
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                               $        1,793,794        $      13,912,025
   Fines and Penalties                                                         35,172                   54,122
   Credit Reform                                                               13,678                   32,860
   TDA Interest                                                                 8,960                   11,836
 Total Cash Collections                                                     1,851,604               14,010,843

 Accrual Adjustments
  Spectrum Auctions                                                                (444)                (7,363)
  Fines and Penalties                                                             8,515                (15,776)
 Total Accrual Adjustments                                                        8,071                (23,139)

Total Custodial Revenue                                                     1,859,675               13,987,704

Disposition of Collections:
 Transferred to Others:
   Recipient A: U.S. Treasury                                                  (49,010)             (6,936,797)
   Recipient B: Spectrum Relocation Fund                                           (92)             (6,849,884)
   Recipient C: National Telecommunications & Information Admin.            (1,778,983)                    -

 (Increase)/Decrease in Amounts Yet to be Transferred                          62,369                 (104,187)
 Retained by the Reporting Entity                                             (93,959)                 (96,836)

Net Custodial Activity                                             $                -        $             -




                          The accompanying notes are an integral part of these statements.




                                                                                                               5
This Page Is Intentionally Left Blank




                                        6
NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS
FOR THE YEARS ENDED SEPTEMBER 30, 2008 AND 2007
(DOLLARS IN THOUSANDS UNLESS OTHERWISE STATED)


Note 1 - Summary of Significant Accounting Policies

Reporting Entity

The Commission is an independent United States Government agency, established by the
Communications Act (Act) of 1934, as amended. The Commission is charged with regulating interstate
and international communications by radio, television, wire, satellite, and cable. The Commission’s
jurisdiction spans the 50 states, the District of Columbia, and the U.S. possessions. Five commissioners
direct the Commission; they are appointed by the President of the United States and confirmed by the
Senate for five-year terms, except when filling an unexpired term or serving in holdover status.

The Commission is comprised of three reporting components. The primary component consists of
Commission headquarters and field offices. The two additional components are the Universal Service
Fund (USF) and the North American Numbering Plan (NANP). The USF reports the results of the four
Universal Service support mechanisms (established pursuant to section 254 of the Act, as amended) and
the results of the Telecommunications Relay Service (TRS) Fund (established by the Americans with
Disabilities Act of 1990, Title IV). The NANP reports the results of billing and collection activities
conducted to support the NANP (47 U.S.C. § 251(e); 47 C.F.R. § 52.16, 52.17, 52.32, and 52.33).

Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the Commission in conformity with U.S. Federal generally accepted accounting principles
(GAAP) and the form and content for entity financial statements specified by OMB Circular No. A-136
“Financial Reporting Requirements.”

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the amounts reported in the financial statements. Actual results may
differ from those estimates.

Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The Commission may use the appropriated and revolving funds to finance expenditures,
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be properly disbursed or distributed.




                                                                                                        7
Note 1 - Summary of Significant Accounting Policies (continued)

Cash and Other Monetary Assets

Cash and Other Monetary Assets represent cash on deposit and money market funds at several
commercial banks in accounts maintained by USAC, NECA, and Welch, which contain the names of
those entities and also refer to the Commission or the fund for which they serve as administrator or billing
and collection agent. Cash on deposit is collateralized by the Federal Reserve.

Investments

Investments are reported net of the unamortized premium or discount. All investments are in Treasury
securities.

Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from the public and other federal entities.
Gross receivables are reduced to net realizable value by an allowance for doubtful accounts.

Loans Receivable, Net

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. (Present
value is calculated as the estimated cash outflows over the life of the loans, less the present value of the
estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a similar
maturity term.) Direct loans are reported net of an allowance for subsidy at the present value.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. All PP&E with
an initial acquisition cost of $25 thousand or more and all internally developed software with a
development cost of $50 thousand or more, and with an estimated useful life of two years or greater, are
capitalized. Bulk purchases of similar items, individually worth less than $25 thousand but collectively
worth more than $250 thousand, are also capitalized using the same equipment categories and useful lives
as capital acquisitions. PP&E are depreciated on a straight-line basis over the estimated useful lives of
the items. The useful lives used are: forty years for buildings, seven years for non-computer equipment,
five years for computers and vehicles, and three years for software. Neither land, including permanent
improvements, nor software in development is depreciated. Normal maintenance and repair costs are
expensed as incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.




                                                                                                          8
Note 1 - Summary of Significant Accounting Policies (continued)

Other Assets

Other Assets represents the balance of transfers less expenses made by the USF to the Universal Service
Administration Company (USAC) to fund administrative costs in advance. Advances are drawn down as
expenses are incurred. Other Assets – Intragovernmental are discussed in Note 8.

Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

Deferred Revenue

The Commission collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. All proceeds collected up to the amount of the net winning bid are recognized as deferred
revenue until a “prepared to grant” or “grant” public notice is issued. In addition, the Commission
collects multi-year regulatory fees for five- and ten-year periods that are recorded as deferred revenue and
amortized over the period of the fee.

The NANP and USF collect contributions from U.S., Canadian, and Caribbean carriers to cover the costs
of the programs. Some carriers have the option of paying monthly or annually. The unearned portion of
annual contributions is recognized as deferred revenue.

Debt

This account represents amounts due to the U.S. Treasury’s Bureau of Public Debt (BPD) to support the
spectrum auction loans program. Borrowings from BPD are determined based on subsidy estimates and
re-estimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payments
on debt are calculated annually and remitted to BPD at the end of the fiscal year. These payments are
recorded in a receipt account maintained by the Commission.

Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The Commission does not recognize
any liability on the Balance Sheet for pensions, other retirement benefits, and other post-employment
benefits. The Commission recognizes and allocates the imputed costs on the Statement of Net Cost and
recognizes imputed financing related to these costs on the Statement of Changes in Net Position.




                                                                                                          9
Note 1 - Summary of Significant Accounting Policies (continued)

Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most Commission
employees participate in the Civil Service Retirement System (CSRS) or the Federal Employee
Retirement System (FERS). Under CSRS, the Commission makes matching contributions equal to seven
percent of basic pay. For FERS employees, the Commission contributes the employer’s matching share
for Social Security, contributes an amount equal to one percent of employee pay to a savings plan, and
matches up to an additional four percent of pay. Most employees hired after December 31, 1983 are
covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined by using historical benefit payment patterns
related to a specific incurred period to predict the ultimate payment related to that period. The
Department of Labor determines no actuarial liability for the Commission, due to the immateriality to the
Federal Government as a whole.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

Revenue and Other Financing Sources

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993 directed the
Commission to assess and collect regulatory fees to recover the costs incurred in carrying out certain
provisions of its mission. Section 9(a) of the Act, as amended, authorizes the Commission to assess and
collect annual regulatory fees to recover the costs, as determined annually by Congress, incurred in
carrying out its strategic goals of broadband, competition, spectrum, media, public safety and homeland
security, and modernizing the Commission. These fees were established by congressional authority, and,
consistent with OMB Circular No. A-25 revised, User Charges, the Commission did not determine the
full costs associated with its regulatory activity in establishing regulatory fees. Since 1993, Congress has
annually reviewed the regulatory fee collection requirements of the Commission and established the total
fee levels to be collected. Fees collected up to the level established by Congress are applied against the
Commission’s annual appropriation at the close of each fiscal year. The regulatory fee levels of $312,000
for FY 2008 and $290,295 for FY 2007 were achieved.




                                                                                                         10
Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the Commission accounts for this exchange revenue as a custodial activity. Revenue from
spectrum auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value
of available spectrum is determined by the market place at the time of auction. The Commission
recognized custodial revenue of $1,793,350 in FY 2008 and $13,904,662 in FY 2007.

Offsetting Collections (Exchange) – One of the Commission’s primary functions is managing the
spectrum auction program. Proceeds from the auctions are initially remitted to the Commission and are
later transferred to the U.S. Treasury, net of anticipated auction related costs (under 47 U.S.C. § 309, the
Commission may retain a portion of the spectrum auction proceeds to offset the cost of performing the
auction function). Collections used to offset the cost of performing auctions-related activity were capped
at $85,000 in FY 2008 and FY 2007.

Application Fees (Exchange) – Congress authorized the Commission (47 U.S.C. § 8) to impose and
collect application processing fees and directed the Commission to prescribe charges for certain types of
application processing or authorization services it provides to communications entities over which the
Commission has jurisdiction. The Commission amends its Schedule of Application Fees (47 C.F.R. §
1.1102 et seq.) to adjust the fees for processing applications and other filings. Section 8(b) of the Act, as
amended, requires the Commission to review and adjust its application fees every two years. The
adjusted or increased fees reflect the net change in the Consumer Price Index for all Urban Consumers
(CPI-U), calculated over a specific period of time. Application fees are deposited in the Treasury and are
not available for the Commission’s use. Application fees collected totaled $22,175 in FY 2008 and
$22,535 in FY 2007.

Reimbursable Work Agreements (Exchange) – The Commission recognizes reimbursable work
agreement revenue when earned, i.e., goods that have been delivered or services rendered. The
Commission executed agreements totaling $2,052 in FY 2008 and $1,686 in FY 2007.

Annual Appropriations (Financing Source) – The Commission receives an annual Salaries and Expenses
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation for FY 2008 is
$313,000 with regulatory fee collections of $312,000 resulting in a net appropriation of $1,000. The
annual appropriation for FY 2007 was $291,282 with regulatory fee collections of $290,295 resulting in a
net appropriation of $987. The Commission funds expenditures first from appropriations and then from
offsetting collections.




                                                                                                          11
Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

Subsidy Estimates and Reestimates (Financing Source) – The Commission receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. The Commission received no appropriations in FY 2008 and $31,232 in FY 2007 for these
purposes. These appropriations are available until used.

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated, dedicated and earmarked receipts and are accounted for as a budgetary financing source.
Contributions and related interest totaled $8,566,063 in FY 2008 and $7,570,445 in FY 2007.

Allocation of Exchange Revenues
The FCC directly assigns exchange revenue from reimbursable work agreements to specific programs on
the statement of net cost. Exchange revenue from regulatory fees, offsetting collections, and application
fees is assigned to programs in direct proportion to the level of direct and indirect costs recognized for
each program. Radio Spectrum Auction proceeds are exchange revenue but are recorded on the statement
of custodial activity because there is no relationship between the cost of the spectrum and the revenue it
generates.

Reclassifications

Statement of Budgetary Resources
Congress provided an exemption to the USF (excluding TRS) from the Anti-Deficiency Act in both FY
2008 and FY 2007. In FY 2008 OMB provided new guidance to the Commission indicating that USF
unobligated balances should be reflected as exempt from apportionment, because of the ADA exemption.
For comparative purposes, the Commission has reclassified the FY 2007 USF unobligated balances from
the unobligated balances not available line to the exempt from apportionment line.




                                                                                                        12
Note 1 - Summary of Significant Accounting Policies (continued)

Transactions with Related Parties

The Commission has a direct oversight relationship with the administrators and billing and collection
agents (B&C agents) of funds that are components under the overall Commission entity. These
organizations are the Universal Service Administrative Company (USAC), which is both the
administrator and B&C agent for the four USF support mechanisms, the National Exchange Carrier
Association (NECA) which is both the administrator and B&C agent for the TRS Fund, and Neustar
which is the administrator for the NANP fund and Welch LLP which is the B&C agent for the NANP
fund. The Commission approves the administrative costs paid to these entities from the respective funds
that they manage. The administrative costs cover expenses such as the salaries and benefits for the
employees dedicated to managing the funds; rent and utilities for office space used; accounting and other
financial reporting related services; and other management activities. All related party balances as of and
for FY 2008 and FY 2007 are listed below:

                                 USF           TRS            NANP          Total

FY 2008:
Administrative Fees          $ 156,120     $      1,097   $     3,875   $    161,092
Due To                               -               93           265            358
Due From                        15,031                -             -         15,031
Total                        $ 171,151     $      1,190   $     4,140   $    176,481

FY 2007:
Administrative Fees          $    77,778   $      1,046   $     5,140   $     83,964
Due To                                 -             69           720            789
Due From                           8,674              -             -          8,674
Total                        $    86,452   $      1,115   $     5,860   $     93,427


Net Position

Net Position is the residual difference between assets and liabilities and comprises Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net result of the Commission’s
operations since inception.




                                                                                                        13
Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2008 and 2007:

                                                                               FY 2008                      FY 2007
      Intragovernmental:
          Fund Balance with Treasury (FBWT)                                $      212,116               $    268,434
          Accounts Receivable, Net                                                  2,716                      4,703
          Other (Note 8)                                                       17,177,707                          -
       Total Intragovernmental                                                 17,392,539                    273,137

      Cash and Other Monetary Assets                                                  1                           -
      Accounts Receivable, Net                                                   30,259                      16,593
      Total Non-entity Assets                                                17,422,799                     289,730
      Total Entity Assets                                                     7,105,042                   6,294,621
      Total Assets                                                         $ 24,527,841                 $ 6,584,351

Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $208,390 in FY 2008 and $267,178 in FY 2007. Non-entity
Cash and Other Monetary Assets also consist of deposits made by spectrum auction bidders that are held
outside of Treasury. Receivables considered non-entity are for regulatory fees, application fees, fines and
forfeitures, spectrum auction receivables, and International Telecommunications Settlement (ITS)
charges.

Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury as of September 30, 2008 and 2007:

FY 2008
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds         Total

Unobligated Balance
 Available                            $    39,246    $        53,904   $             -   $     93,150
 Unavailable                               56,966                  -                 -         56,966
Obligated Balance not yet Disbursed        82,061                  -                 -         82,061
Non-Budgetary FBWT                               -                 -           212,116        212,116
Total                                 $   178,273    $        53,904   $       212,116   $    444,293



FY 2007
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds         Total

Unobligated Balance
 Available                            $    27,051    $        45,527   $             -   $     72,578
 Unavailable                               36,768                  -                 -         36,768
Obligated Balance not yet Disbursed        81,743                  -                 -         81,743
Non-Budgetary FBWT                               -                 -           268,434        268,434
Total                                 $   145,562    $        45,527   $       268,434   $    459,523




                                                                                                                       14
Note 3 - Fund Balance with Treasury (continued)

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the no-year accounts used to carry over spectrum auction and
regulatory fee funds, and the credit reform program account.
Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the Commission’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are not available for use by the Commission unless they are properly identified or reclassified as
Commission funds. Otherwise, these funds are returned to the depositor or transferred to the Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2008 and 2007:


                                             FY 2008                 FY 2007

Cash and Cash Equivalents                $    51,942             $    100,200

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the Commission’s Treasury account. Interest earned
on cash and other monetary assets is reinvested, with the exception of interest earned on third-party
deposits, which is transferred to the Telecommunications Development Fund (TDF).

In FY 2008 Cash and Other Monetary Assets included $1 in deposits or related accrued interest being
held for spectrum auctions, $46,864 in USF contributions and related accrued interest being held for
distribution, and $5,077 in NANP deposits and related accrued interest.

In FY 2007 Cash and Other Monetary Assets included no deposits and related accrued interest being held
for spectrum auctions, $95,241 in USF contributions and related accrued interest being held for
distribution, and $4,959 in NANP deposits and related accrued interest.




                                                                                                        15
Note 5 - Investments

The following summarizes Investments as of September 30, 2008 and 2007:


                                                                 Amortized                                   Market
                                     Purchase     Amortization   (Premium)     Interest    Investments,      Value
                                       Cost         Method        Discount    Receivable       Net         Disclosures

FY 2008
Intragovernmental Securities:

  Marketable Securities
  Treasury Bills                 $    5,211,180       EI         $   20,246 $          -   $   5,231,426   $ 5,241,995
  Treasury Notes                        488,609       EI             (4,045)       5,619         490,183       491,554
  Total                          $    5,699,789                  $   16,201 $      5,619   $   5,721,609   $ 5,733,549

FY 2007
Intragovernmental Securities:

  Marketable Securities
  Treasury Bills                 $    3,445,376       EI         $   28,263   $        -   $   3,473,639   $ 3,478,422
  Treasury Notes                      1,512,455       EI              3,034       22,889       1,538,378     1,517,768
  Total                          $    4,957,831                  $   31,297   $   22,889   $   5,012,017   $ 4,996,190

EI - Effective Interest Method

All Treasury securities, regardless of the maturity date, are reported as investments. The Commission
expects to hold all investments to maturity; therefore, no adjustments have been made to present market
values. All investments are held by USF and are also recognized as part of earmarked funds in Note 19.

The cash receipts collected from the public for the Universal Service Fund are used to purchase federal
securities. Treasury securities are an asset to the Universal Service Fund and a liability to the U.S.
Treasury. Because the Universal Service Fund and the U.S. Treasury are both parts of the Government,
these assets and liabilities offset each other from the standpoint of the Government as a whole. For this
reason, they do not represent an asset or a liability in the U.S. Government-wide financial statements.

Treasury securities provide the Universal Service Fund with authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When the Universal Service Fund requires
redemption of these securities to make expenditures, the Government finances those expenditures out of
accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying
less debt, or by curtailing other expenditures. This is the same way that the Government finances all other
expenditures.

The format for the Investments note has been updated to agree with the revised OMB Circular A-136.
For comparability purposes, the FY 2007 format has been adjusted to agree with this update.




                                                                                                                     16
Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2008 and 2007:

                                         Intragovernmental                 Public            Total
FY 2008
 Gross Accounts Receivable                    $      2,731      $ 1,297,076              $ 1,299,807
 Allowance for Doubtful Accounts              (           -)      (   405,970)           (    405,970)
Net Accounts Receivable                       $       2,731       $   891,106            $ 893,837

FY 2007
 Gross Accounts Receivable                    $       4,711        $        1,533,201    $ 1,537,912
 Allowance for Doubtful Accounts              (           -)           (      782,439)       (
                                                                                             782,439)
Net Accounts Receivable                       $       4,711        $          750,762    $   755,473

Interest on Delinquent AR                     $       -            $          45,856     $       45,856

Accounts receivable are recorded net of any related allowance for doubtful accounts. The Commission’s
portion is determined by applying predetermined percentages against the respective date the receivable
was established. The current formula for the Commission’s allowance is 25% for receivables 91-180
days outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable. The general allowance is calculated by multiplying the receivable amounts
by the percentage of the estimated uncollectible amount as determined by a review of historical collection
rates by type of receivable.

The Notice of Apparent Liabilities (NAL) receivables represent notifications of a forfeiture, subject to
final determination. The NAL receivables are included under the Forfeitures category in the table below.
While these receivables are included on the Treasury Report on Receivables at the request of Treasury,
the ability to collect these receivables is not determined until a final judgment is issued. A 100%
allowance is made for all NAL receivables. Similarly, the Commitment Adjustment (COMAD) audit
receivables are subject to appeal and are not considered final until the appeals period has lapsed or a final
determination has been issued. The COMAD audit receivables for Schools and Libraries have an 86%
allowance in FY 2008 and a 90% allowance in FY 2007.

In FY 2008 the FCC completed the write-off process for two large Spectrum Auction receivables totaling
$386,810. These write-offs are responsible for the large decrease in the Spectrum Auction Accounts
receivable and Allowance balances for uncollectibles between FY 2007 and FY 2008.




                                                                                                          17
Note 6 - Accounts Receivable, Net (continued)

                                  FY 2008                                 FY 2007

                    Accounts                                Accounts
                   Receivable    Allowance       Net       Receivable    Allowance       Net

USF                $ 1,043,273   $ (198,862) $   844,411   $   932,030   $ (208,793) $   723,237
COMAD                  115,016      (98,914)      16,102       110,981      (99,883)      11,098
Regulatory Fees         29,498      (15,684)      13,814        24,737      (16,958)       7,779
Spectrum Auction        26,089      (23,596)       2,493       415,147     (412,211)       2,936
Forfeitures             72,410      (60,767)      11,643        39,804      (37,156)       2,648
Other                   13,521       (8,147)       5,374        15,213       (7,438)       7,775
Total              $ 1,299,807   $ (405,970) $   893,837   $ 1,537,912   $ (782,439) $   755,473


Note 7 – Loans Receivable, Net

Under section 309(j)(3) of the Act, as amended, Congress directed the Commission to implement a
competitive bidding (auctions) system for licensing spectrum to expand economic opportunity, promote
competition, and facilitate the development and delivery of new and improved telecommunications
services to the public. Section 309(j)(4) of the Act gave the Commission certain instructions for
implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women and minority-owned businesses have an opportunity to participate in
providing spectrum-based services. The Commission can use various means to facilitate expanded
participation, including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the Commission provided installment financing in connection with its spectrum
auction events, including the C Block Broadband Personal Communications Services (PCS), F Block
PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multichannel Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten years to repay their net winning bid amount (less the
down payment), with up to five-year, interest-only initial payment periods. Interest rates varied by the
type of borrower. Retention of licenses granted at auction was strictly conditioned on making full and
timely payment of amounts as they become due. The return or repossession of auctioned licenses, which
may have previously been associated with installment payment plans, does not directly or immediately
affect the amount of the outstanding debt recorded in the agency’s financial records. Outstanding debt
adjustments are subject to a separate process.

The Commission’s first auction was conducted in 1994, and starting in 1995 installment payment
mechanisms were used to finance portions of some winning bids. The Commission’s installment loan
portfolio is tracked under ten cohorts. The last active loan matured in April 2007.

As required under the FCRA of 1990, as amended, the Commission coordinates with the OMB in
developing estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates
and reestimates. The most recent subsidy reestimate was completed in September 2008 for actual
performance data through August 31, 2008. The reestimate resulted in a net upward adjustment,
including interest on the reestimate, of $27,627 reported in the FY 2008 financial statements.




                                                                                                      18
Note 7 – Loans Receivable, Net (continued)

Direct Loans

                       Loans                                                 Allowance for      Value of
                       Receivable,      Interest            Other            Subsidy Cost       Assets Related
Loan Program           Gross            Receivable          Receivables     (Present Value)     to Direct Loans

Spectrum Auctions:
   FY 2008 Bal.        $ 210,275        $    16,511         $   1,480        $       (40,926)    $     187,340

   FY 2007 Bal.        $ 377,368        $    28,444         $   1,849        $    (190,816)      $     216,845

Interest accrued on bankrupt and defaulted loans totaled $16,511 in FY 2008 and $28,444 in FY 2007.

Total Amount of Direct Loans Disbursed

No new loans were issued in FY 2008 and 2007.

Subsidy Expense for Direct Loans by Program and Component

Direct Loan Modifications and Reestimates:
                                             Interest Rate           Technical              Total
Loan Program           Modifications         Reestimates             Reestimates            Reestimates

Spectrum Auctions:
   FY 2008 (Net)       $         -           $          -            $      27,627          $    27,627

   FY 2007 (Net)       $         -           $          -            $     (29,099)         $   (29,099)

Schedule for Reconciling Subsidy Cost Allowance Balances


                                                                  FY 2008                FY 2007
Beginning Balance of the Subsidy Cost Allowance                 $ 190,816              $ 313,486

Adjustments:
       Recoveries                                                          85                21,942
       Loans written off                                             (193,048)              (15,663)
       Subsidy allowance amortization                                  15,446                21,253
       Other                                                                 -             (121,103)
Ending balance before reestimates                                      13,299               219,915

Subsidy reestimates:
       Technical/default reestimate                                      27,627            (29,099)

Ending balance of the subsidy cost allowance                     $       40,926        $   190,816




                                                                                                             19
Note 7 – Loans Receivable, Net (continued)

Administrative Expense                                             FY 2008             FY 2007

    Spectrum Auctions                                          $      6,426        $      6,622

Note 8 – Other Assets

The FCC was required by the Digital Television Transition and Public Safety Act of 2005 to transfer the
proceeds received from its competitive bidding system for recovered analog spectrum into the Digital
Television Transition and Public Safety Fund (the Fund) by June 30, 2008. At the time of transfer and
through September 30, 2008, there were $17,177,707 in proceeds that had not been earned by the Federal
government because the licenses related to these proceeds had not been granted. As the custodian for this
spectrum, the FCC has retained a deferred revenue liability to the public for this amount in the event that
any of these proceeds is required to be refunded. As an offset to the liability, the FCC has recognized an
Intragovernmental Other Asset from the National Telecommunications and Information Administration
(NTIA) who holds the related Fund Balance. The NTIA has recorded a corresponding Other Liability
that will eliminate with the FCC Other Asset for Governmentwide Financial Reporting purposes.

Note 9 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2008
and 2007:
                                                              FY 2008             FY 2007
        Intragovernmental:
             Other:
                FECA Liability                               $       480          $     399

        Other:
                 Unfunded Leave                                          18,190                17,186
                 Accrued Liabilities for Universal Service              521,319               481,603
        Total liabilities not covered by budgetary resources            539,989               499,188
        Total liabilities covered by budgetary resources             17,792,008               621,260
        Total Liabilities                                          $ 18,331,997           $ 1,120,448

Note 10 - Debt

                                FY 2007                        FY 2007                      FY 2008
                               Beginning         Net           Ending           Net         Ending
                                Balance        Borrowing       Balance        Borrowing     Balance

Debt to the Treasury            $   448,997   $ (343,083)       $ 105,914      $ 6,797      $ 112,711

The Commission borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.




                                                                                                        20
Note 11 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2008 and 2007:

FY 2008                                      Non-Current          Current            Total
Intragovernmental
      Custodial Liability                   $           -     $     193,854      $    193,854
      Other                                             -             2,346             2,346
Total Intragovernmental                     $           -     $     196,200      $    196,200

Deferred Revenue                            $     30,509      $ 17,272,039       $ 17,302,548
Prepaid Contributions                                  -            73,179             73,179
Accrued Liabilities for Universal Service              -           521,319            521,319
Other                                                  -            46,471             46,471
Total Other Public                          $     30,509      $ 17,913,008       $ 17,943,517


FY 2007                                      Non-Current          Current            Total
Intragovernmental
      Custodial Liability                   $           -     $     256,223      $    256,223
      Other                                             -             1,840             1,840
Total Intragovernmental                     $           -     $     258,063      $    258,063

Deferred Revenue                            $     20,282      $      71,337      $     91,619
Prepaid Contributions                                  -             45,417            45,417
Accrued Liabilities for Universal Service              -            481,603           481,603
Other                                                                43,327            43,327
Total Other Public                          $     20,282      $     641,684      $    661,966


The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The Commission collects the following types of custodial revenue: spectrum
auction revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees,
and interest revenue on auction deposits (held for TDF). Deferred revenue represents regulatory fees,
spectrum auction revenue, or contributor payments that have been received but not earned by the
Commission.

Prepaid Contributions include USF and NANP contribution overpayments that may be refunded or used
to offset future payments. Accrued Liabilities for Universal Service represent liabilities recorded by the
USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month. Remaining
Other Liabilities primarily represent anticipated payments for services received, but not billed and
Deposit/Unapplied Liability which represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined.




                                                                                                         21
Note 12 - Leases

Operating Leases

The Commission has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods. As a Federal agency, the
Commission is not liable for any lease terms beyond one year. The Commission anticipates that space
levels consistent with FY 2008 will be required for the next five years and has estimated space and copier
payments consistent with the schedule below. No estimates beyond five years have been provided
because of the cancelable nature of the agreements.

Anticipated lease requirements are as follows:

        Fiscal Year                   Building            Copier         Total
            2009                    $     44,217         $ 1,532       $ 45,749
            2010                          45,102           1,532          46,634
            2011                          46,005           1,532          47,537
            2012                          47,054           1,532          48,586
            2013                          48,129           1,532          49,661
    Total Future Lease Payment       $ 230,507           $ 7,660       $ 238,167

Note 13 - Commitments and Contingencies

The Commission, USAC, and the Department of Justice are investigating several cases and prosecuting
others related to disbursements of USF funds from the schools and libraries program, which might result
in future proceedings or actions. The complexity of these actions precludes management from estimating
the total amount of recovery that may result from these actions.

The Commission is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, several ongoing bankruptcy proceedings are related to the loan portfolio.
In the opinion of Commission management, the ultimate resolution of proceedings, actions and claims
will not materially affect the Commission’s financial position or results of operations.

The Commission has examined its obligations related to canceled authority and believes it has no
outstanding commitments requiring future resources.




                                                                                                       22
Note 14 – Intragovernmental Costs and Exchange Revenue

Intragovernmental costs primarily represent interest expense paid by the Commission on outstanding
credit reform borrowing. Additional amounts are also recognized for goods and services purchased by the
Commission from other Federal agencies.

Program Costs - FY 2008
                Program                 Intragovernmental        Public               Total
Broadband                               $           6,069   $          15,718   $            21,787
Competition                                        28,618          7,889,451              7,918,069
Spectrum                                           47,898             150,947               198,845
Media                                              14,543              38,825                53,368
Public Safety and Homeland Security                10,110              22,875                32,985
Modernize the FCC                                  12,638              38,146                50,784
Total                                   $         119,876   $      8,155,962    $         8,275,838

Program Earned Revenue - FY 2008
                Program                 Intragovernmental        Public               Total
Broadband                               $             -     $          25,109   $              25,109
Competition                                           -               119,669                 119,669
Spectrum                                           10,112             144,460                 154,572
Media                                                 593              59,124                  59,717
Public Safety and Homeland Security                 1,287              35,817                  37,104
Modernize the FCC                                     -                55,920                  55,920
Total                                   $          11,992   $         440,099   $             452,091

Program Costs - FY 2007
                Program                 Intragovernmental        Public               Total
Broadband                               $           6,266   $          15,876 $              22,142
Competition                                        29,182          7,568,566              7,597,748
Spectrum                                           63,377             (35,198)               28,179
Media                                              10,360              27,445                37,805
Public Safety and Homeland Security                 9,639              24,025                33,664
Modernize the FCC                                  12,698              37,743                50,441
Total                                   $         131,522   $      7,638,457 $            7,769,979

Program Earned Revenue - FY 2007
                Program                 Intragovernmental        Public               Total
Broadband                               $             -     $          23,989   $              23,989
Competition                                           -               113,911                 113,911
Spectrum                                           25,796             141,997                 167,793
Media                                                 198              39,607                  39,805
Public Safety and Homeland Security                 1,161              33,285                  34,446
Modernize the FCC                                     -                50,939                  50,939
Total                                   $          27,155   $         403,728   $             430,883




                                                                                                        23
Note 15 - Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

The following summarizes Apportionment Categories of Obligations Incurred as of September 30, 2008
and 2007:
                                          FY 2008                            FY 2007
                                   Budgetary     Non-Budgetary       Budgetary     Non-Budgetary
Direct
     Category A                  $     399,995 $              -      $ 377,668 $                -
     Category B                        654,178          13,678           549,655           32,860
     Exempt from Apportionment       8,384,305                -        8,923,845                -
Total Direct                     $ 9,438,478 $          13,678       $ 9,851,168 $         32,860

Reimbursable
    Category A                    $        2,361    $             -       $    2,003   $           -

Category A – Apportioned by Quarter
Category B – Apportioned by Purpose

Note 16 - Terms of Borrowing Authority Used

Maturity Dates :                          FY 2008                 FY 2007

September 30, 2007                    $         -             $          38
September 30, 2008                              -                       166
September 30, 2009                           543                      3,070
September 30, 2010                             1                           -
September 30, 2011                          6,253                          -
Total Borrowing Authority Used        $     6,797             $       3,274

In FY 2008 the FCC used borrowing authority of $6,797 to cover interest expense. In FY 2007 the FCC
used borrowing authority of $2,628 to cover downward subsidy and $646 to cover interest expense. The
FCC anticipates that this borrowing will be repaid from proceeds generated from the recovery of funds
related to bankrupt and defaulted loans.




                                                                                                  24
Note 17 – Legal Arrangements Affecting Use of Unobligated Balances

Pursuant to Public Law 110-161, 121 Stat. 1844 (Dec. 26, 2007), offsetting collections received in excess
of $312,000 in FY 2008 shall not be available for obligation and any remaining offsetting collections
from prior years collected in excess of the amount specified for collection in each such year otherwise
becoming available on October 1, 2007, are not available for obligation. All other no-year unobligated
balances are available at the start of the next fiscal year, following apportionment by the OMB.

Note 18 - Explanation of Differences Between the Statement of Budgetary Resources (SBR) and the
Budget of the U.S. Government

There were no material differences between the Statement of Budgetary Resources for FY 2007 and the
amounts presented in the 2009 President’s Budget. The FY 2010 Budget of the United States Government
(President’s Budget) with actual numbers for FY 2008 has not been published. Pursuant to 31 USC §
1105, the Budget of the United States Government will be released the first Monday in February, and will
be available at the following website: http:/www.whitehouse.gov/omb.

Note 19 – Earmarked Funds

U.S. telecommunications companies are obligated to make contributions to the Universal Service Fund
and the Telecommunications Relay Service Fund. These contributions are accounted for in the Budget of
the U.S. Government as the “Universal Service Fund.” The Commission currently recognizes the
contributions collected under the USF Program as non-exchange revenue on its Statement of Changes in
Net Position, and the related disbursements as program expenses on the Statement of Net Cost.




                                                                                                      25
Note 19 – Earmarked Funds (continued)

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program as of September 30, 2008 and 2007:

                                                            FY 2008                      FY 2007
Balance Sheet
ASSETS
Investments                                         $             5,721,609       $            5,012,017
Cash and other monetary assets                                       46,864                       95,241
Acounts receivable, net                                             862,058                      735,032
General property, plant, and equipment, net                          10,723                        1,748
Other assets                                                         15,031                        8,674
  Total assets                                      $             6,656,285       $            5,852,712

LIABILITIES
Accounts payable                                    $                77,125       $               91,512
Deferred revenue                                                     57,622                       40,652
Prepaid contributions                                                73,145                       45,369
Accrued liabilities                                                 521,319                      481,603
Total liabilities                                   $               729,211       $              659,136

Cumulative results of operations                    $             5,927,074       $            5,193,576

  Total liabilities and net position                $             6,656,285       $            5,852,712

Statement of Net Cost
Gross program costs                                 $             7,811,085       $            7,488,870
Less earned revenues                                                      -                            -
Net cost of operations                              $             7,811,085       $            7,488,870

Statement of Changes in Net Position
Net position beginning of period                    $             5,193,576       $            5,112,001

Non-exchange revenue                                              8,566,063                    7,570,445
Transfers in/out without reimbursement                              (21,480)                           -
Net cost of operations                                            7,811,085                    7,488,870
Change in net position                                              733,498                       81,575

Net position end of period                          $             5,927,074       $            5,193,576




                                                                                                       26
Note 20 – Undelivered Orders at the End of the Period

The amount of budgetary resources obligated for undelivered orders totaled $3,501,751 as of September
30, 2008 and $3,359,478 as of September 30, 2007.

Note 21 – Reconciliation of Net Cost of Operations (Proprietary) to Budget (Formerly the
Statement of Financing)

As of September 30, 2008 and 2007:
                                                                                               FY 2008           FY 2007

Budgetary Resources Obligated
 Obligations incurred                                                                      $    9,454,517    $    9,886,031
 Less: spending authority from offsetting collections and recoveries                            1,464,056         1,926,074
 Obligations net of offsetting collections and recoveries                                       7,990,461         7,959,957
 Less: offsetting receipts                                                                        216,686           275,777
 Net obligations                                                                                7,773,775         7,684,180
Other Resources                                                                                    35,683            37,498
Change in Undelivered Orders                                                                     (142,273)         (551,417)
 Resources that fund expenses recognized in prior periods                                         (32,947)          (41,241)
 Budgetary offsetting collections and receipts that do not affect net cost of operations          196,091           360,339
 Resources that finance the acquisition of assets                                                 (18,373)          (10,837)
 Other                                                                                            (39,425)          (47,283)
 Increase in annual leave liability                                                                 1,004               245
 Upward/Downward reestimates of credit subsidy (+/-)                                               27,627          (150,202)
 Increase in exchange revenue receivable from the public                                              435            10,517
 Other (+/-)                                                                                       15,230            37,953
 Depreciation and amortization                                                                     13,911            16,985
 Other (+/-)                                                                                       (8,302)           (9,027)

Net Cost of Operations                                                                     $    7,822,436    $    7,337,710


Note 22 – Change in Accounting Methods

Pursuant to new guidance obtained from OMB in FY 2008, expirations for obligations recorded for the
commitment letters at the time of expiration are recorded as downward adjustments of prior year
obligations. Subsequent invoices received beyond the invoice deadline and approved for payments are
treated as a second accounting event and an upward adjustment to re-establish prior year obligations.

To ensure that sufficient resources are available to cover obligations, the FCC has incorporated an
estimated amount for invoices that will be re-established after the deadline as part of the total obligated
balance. The estimate is adjusted each quarter and changes in the estimate are recorded as an upward
adjustment to prior year obligations in the same manner that invoices received after the deadline are
recorded.

The impact of the finalized accounting practice on the FY 2007 SBR is presented for comparative
purposes below:

                                                                          Reported              Comparative
Recoveries of prior year unpaid obligations                              $1,405,407             $1,294,474
Obligations incurred: Direct                                             $9,851,168             $9,740,235




                                                                                                                           27
REQUIRED SUPPLEMENTARY INFORMATION

REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF BUDGETARY
RESOURCES
For the Year Ended September 30, 2008
(Dollars in thousands)

The OMB Circular No. A-136, “Financial Reporting Requirements,” requires additional disclosure of an
entity's budgetary information by major budgetary account if the information was aggregated for
presentation purposes on the Statement of Budgetary Resources. The major budget accounts include the
FCC and the Universal Service Fund. Reflected in the chart below are the major accounts of the FCC that
are aggregated and presented in the September 30, 2008 Combined Statement of Budgetary Resources.

FY2008                                                      S&E             Credit       Auctions        USF             Total
Budgetary Resources:

Unobligated balances - brought forward, October 1       $    19,279     $     54,090     $  4,273     $ 1,670,049 $       1,747,691
Recoveries of prior year unpaid obligations                   6,221            7,922        2,625        1,020,163        1,036,931
Budget authority                                            359,570           22,056       85,000        8,597,479        9,064,105
Nonexpenditure transfers, net, anticipated and actual        21,480                -            -          (21,480)               -
Temporarily not available pursuant to Public Law            (54,130)               -            -                -          (54,130)
Permanently not available                                       (51)               -       (4,088)               -           (4,139)
Total budgetary resources                               $   352,369     $     84,068     $ 87,810     $ 11,266,211 $     11,790,458

Status of Budgetary Resources:

Obligations incurred                                    $   321,629     $     20,586     $ 85,322     $ 9,026,980 $       9,454,517
Unobligated balances - available                             30,355            9,570            -        2,135,158        2,175,083
Unobligated balances - not available                            385           53,912        2,488          104,073          160,858
Total, status of budgetary resources                    $   352,369     $     84,068     $ 87,810     $ 11,266,211 $     11,790,458

Change in Obligated Balance:

Total unpaid obligated balance, net brought Forward     $     43,312    $       9,606    $ 28,827     $ 3,383,019 $       3,464,764
Obligations incurrred, net                                   321,629           20,586       85,322       9,026,980        9,454,517
Gross outlays                                               (306,107)         (20,116)     (84,946)     (7,882,415)      (8,293,584)
Recoveries of prior year unpaid obligations, actual           (6,221)          (7,922)      (2,625)     (1,020,163)      (1,036,931)
Change in uncollected customer payments from
 Federal sources                                                 (7)                -           -               -               (7)
Total, Unpaid obligated balance, net, end of period     $    52,606     $       2,154    $ 26,578     $ 3,507,421      $ 3,588,759

Net Outlays

Gross outlays                                           $    306,107    $      20,116    $ 84,946     $ 7,882,415 $       8,293,584
Offsetting collections                                      (326,862)         (15,258)     (85,000)             -          (427,120)
Distributed offsetting receipts                              (23,888)               -            -       (192,798)         (216,686)
Net outlays                                             $    (44,643)   $       4,858    $     (54)   $ 7,689,617 $       7,649,778




                                                                                                                                 28
                                                               Office of the Managing Director
                                                                               MEMORANDUM




DATE:           November 14, 2008

TO:             Kent R. Nilsson, Inspector General

FROM:           Anthony J. Dale, Managing Director and Mark Stephens, Chief Financial Officer

SUBJECT:        Management’s Response to Independent Auditor’s Reports on Internal Controls and
                Compliance with Laws and Regulations for Fiscal Year 2008


Thank you for the opportunity to review and comment on the draft reports entitled Independent Auditor’s
Report on Internal Control and Independent Auditor’s Report on Compliance with Laws and Regulations.
We appreciate the efforts of your team and the independent auditor, Clifton Gunderson LLP, to work with
the Federal Communications Commission (Commission) throughout the fiscal year (FY) 2008 audit
process.

We are pleased that, for the third straight year, the independent auditor provided an unqualified opinion
and found that the Commission’s consolidated financial statements for FY 2008 present fairly, in all
material respects, the financial position of the Commission as of September 30, 2008. Three straight
years of clean audit opinions is an unprecedented accomplishment for the Commission. We have worked
very hard to continue strengthening the Commission’s internal controls and improving its financial
management.

Despite these successes, work remains here at the Commission. The FY 2008 audit report points out one
material weakness and three significant deficiencies related to internal controls and notes two instances of
non-compliance that still need to be resolved. The primary areas of concern relate to financial reporting,
the modernization of the Commission’s and its reporting components’ financial management systems,
information technology control weaknesses, and instances of non-compliance with the Debt Collection
Improvement Act. We concur with the recommendations made by the independent auditor in its report.

First, we would like to address the material weakness. For the first time since 2005, the independent
auditor identified a material weakness in the Commission’s internal controls over its finance and
accounting operations. Specifically, the independent auditor concluded that the Universal Service
Administrative Company (USAC), which administers the $7.8 billion Universal Service Fund (USF)
under Commission oversight, misinterpreted the Commission’s instructions and failed to properly
implement a change to an accepted accounting method. The independent auditor notes that USAC’s
internal control breakdown was isolated to only one of the Commission’s five financial statements, the
Statement of Budgetary Resources (SBR). The Commission and USAC have already started


                                               Page 1 of 3
implementing appropriate corrective action to ensure this or similar breakdowns do not occur in the
future. The Commission has directed USAC to:

        1. Finish implementing corrective action as soon as possible.
        2. Ensure its accounting staff is appropriately resourced and trained.
        3. Conduct a comprehensive assessment of its policies and procedures governing preparation of
           the SBR to ensure that the identified breakdown is not more significant.
        4. Perform periodic in-depth financial analysis including fluctuation and trend analysis on a
           quarterly basis
        5. Notify the Commission’s Chief Financial Officer (CFO) of the dates and times scheduled for
           its Senior Management Council to meet so that the CFO or his staff may attend.
        6. Submit the risk assessments conducted by its Senior Management Council to the
           Commission’s CFO and to the Inspector General for review and comment.
        7. Consider adverse findings in internal control assessments in rating, compensating, and
           awarding USAC executives.

The independent auditor’s conclusion underscores the need for strong Commission oversight of USAC.
During FY 2008, the Commission revised and strengthened the existing Memorandum of Understanding
(MOU) with USAC, required USAC to implement a performance-based executive compensation
program, and directed USAC to take strong measures to prevent and deter potential improper payments.
Still, USAC’s failure to properly implement the Commission’s instructions concerning its budgetary
accounting procedures highlights the importance of the Commission taking an active role to ensure
USAC administers the USF in an efficient, effective manner. During FY 2009, we plan to continue our
record of strong oversight of USAC and the USF.

With regard to addressing the significant deficiency and instance of non-compliance related to the
Commission’s and its reporting components’ financial systems, the Commission has taken steps
throughout FY 2007 and 2008 to resolve the auditor’s findings and improve the performance of its
financial reporting through the implementation of a new core financial management system. The
Commission is currently relying on a core financial management system that will soon be obsolete and
will not be supported by its vendor. The Commission has approached the replacement of its core
financial management system as an opportunity to deliver on its strategic goal of modernizing the
Commission and to establish a legacy of effectiveness. The Commission released its solicitation for
proposals for a new core financial system at the end of FY 2007. During FY 2008, the Commission
selected a vendor to supply the new core financial system and provide integration services. The
Commission also selected a vendor to assist with change management as it moves to the new core
financial system. At this time, the Commission plans to complete the deployment of the new financial
system by October 1, 2010. At the same time, the Commission is closely monitoring the progress of its
reporting components’ efforts to modernize their financial systems.

With regard to addressing the significant deficiency related to USAC’s methodology for allowances for
losses on accounts receivables for the USF, the Commission will work with USAC to resolve this issue
by requiring historical trend analysis that considers the age of the receivables to validate the necessary
reserve.

With respect to the significant deficiency related to information technology control weaknesses, the
Commission is already working to fully assess the auditor’s recommendations and to develop corrective
action plans. Some findings are already in the process of being addressed (e.g., the certification and
accreditation of key information technology systems). During FY 2009, the Commission will make every
effort to complete corrective action for each of the recommendations associated with these findings so as
to avoid any repeat findings in this area.

                                              Page 2 of 3
Finally, with respect to the instance of non-compliance concerning timely transfer of delinquent debt to
the Department of the Treasury for collection, the Commission has worked throughout the past fiscal year
to remedy this issue. During FY 2008, the Commission performed a significant transfer of delinquent
debt and reached the 98% percent transfer mark for the fiscal year. The Commission plans to fully
address this issue in FY 2009 and ensure that all reporting in this area is accurate.

We are committed to continually strengthening the internal controls of the Commission and its reporting
components. This commitment includes developing timely, accurate, and useful performance and
financial information to ensure the most effective stewardship of both the funds that the Commission
oversees and the funds that the Commission uses to finance its operations. We look forward to working
in FY 2009 to resolve the FY 2008 audit findings and to enhance the culture of integrity, accountability,
and excellence that exists here at the Commission.




                                                Anthony J. Dale, Managing Director
                                                Office of Managing Director




                                                Mark Stephens, Chief Financial Officer
                                                Office of Managing Director




                                              Page 3 of 3
